55 E lm Street
P.O . Box 120
Hartford, CT 06 14 1-0 120

WILLIAM TONG
ATTORNEY GENERAL

Office of the Attorney General

State of Connecticut

Tel: (860) 808-5020
Fax: (860) 808-5347

December 11, 2019
Clerk of the United States Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543

RE: Connecticut Fine Wine and Spirits, LLC, dba Total Wine & More v.
Conimissioner Michelle H. Seagull, et al., No. 19-710
Dear Attorney Harris:
I represent Defendants-Respondents, Commissioner of the Connecticut
Department of Consumer Protection Michelle H. Seagull and Director of the
Connecticut Division of Liquor Control John Suchy ("State Respondents"), in the
above-captioned case. Pursuant to Rule 30.4 of the Rules of the United States
Supreme Court, State Respondents hereby respectfully request a sixty (60) day
extension of time, up to and including March 3, 2020, in which to file their response
to the petition for certiorari. The petition was docketed on December 4, 2019, and
State Respondents' brief in opposition currently is due on January 3, 2020. Counsel
for Petitioner does not object to this request. Counsel for Intervenors-Respondents
also do not object to this request.
This request is made necessary by the fact that counsel for State
Respondents is scheduled to be out of the office for several days between now and
the date when Respondents' brief currently is due, and by the intervening holiday
and vacation schedules of others in the office who will be preparing and reviewing
the brief. In addition, counsel must comply with previously scheduled deadlines in
other matters in the federal and state courts. Counsel therefore requires additional
time in which to prepare a response to the petition.
Respectfully submitted,

- ~~~
Robert J. Deichert
Assistant Attorney General
Counsel of Record for State Respondents

An Affirmative Action/Equal Opportunity Employer

